WAIVER

Supreme Court, U.S.
FILED

AUG 0 9 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
No. 21-88
Christina Paylan

Darrell Dirks, et al.

v.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:

Q

I am filing this waiver on behalf of all respondents.

®

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Assistant State Attorney Christine Brown, Assistant State Attorney Darrell Dirks, former Florida Attorney
General Pamela Bondi and former Thirteenth Judicial Circuit State Attorney Mark Ober
Please check the appropriate box:

0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 0543).

Signature:

8/9/21

Date:

(Type or print) Name Eugenia lzmaylova

0

Ms.

0 Mrs.

0

Miss

Office of the Florida Attorney General
Address

3507 E. Frontage Road, Suite 150

City & State

Tampa, Florida

Phone

(813) 233-2880

Zip 33607
Email Eugenia.lzmaylova@myfloridalegal.com

A copy of this form must be sent to petitioner's counsel or to petitioner ifpro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is
Christina Paylan

FICEIVED

AUG 1 7 2021
OFFICE OF THg CLERK
UPREIVIF COuRT, U.S.

